No._________________

In the Supreme Court of the United States

______________________________________________
BILLIE RENÉ FRANCES LILLIAN POWERS,
Petitioner,
v.
THE BANK OF NEW YORK MELLON, FKA Bank
of New York, as Trustee, on behalf of the holders of
the alternative Loan Trust 2007-HY9 Mortgage
Pass Through Certificates Series 2007-HY9, et al.,
Respondents
______________________________________________
INDEX TO APPENDICES
APPENDIX A: July 22, 2020 Memorandum
Opinion of the Ninth Circuit Court of Appeals

1a

APPENDIX B: August 13, 2020 Mandate of
the Ninth Circuit Court of Appeals

3a

APPENDIX C: Constitutional Provisions,
Amendments and Rules of Court Involved

4a

1a
APPENDIX A

NOT FOR PUBLICATION

FILED

UNITED STATES CIRCUIT COURT OF APPEALS
JUL 22 2020
FOR THE NINTH CIRCUIT
MOLLY C. DWYER,
CLERK U.S. COURT OF APPEALS

BILLIE RENEE FRANCES LILLIAN POWERS,
Petitioner,
No. 19-55013
LORIE-ANN COLE;
D.C. No. 8:17-cv-01386VALERIE-YNN NAIF,
DOC-KES
Intervenors-Pending
v.
THE BANK OF NEW YORK MELLON, FKA Bank
of New York, as Trustee, on behalf of the holders of
the alternative Loan Trust 2007-HY9 Mortgage
Pass Through Certificates Series 2007-HY9;
SELECT
PORTFOLIO
SERVICING,
INC.;
MORTGAGE
ELECTRONIC
REGISTRATION
SYSTEMS, INC.; JON SECRIST; NICHOLE
CLAVADETSCHER; COMMONWEALTH LAND
TITLE COMPANY; BANK OF AMERICA, NA;
DOES, 1-10,
Respondents
Before: O’SCANNLAIN, TROTT, and N.R. SMITH,
Circuit Judges.

2a
Billie Rene Francis Lillian Powers appeals
the dismissal of her fourth amended complaint. The
facts are known to the parties, so we do not repeat
them here.
In her opening brief, Powers lists thirty-four
issues that she asks to be reviewed. However, she
provides no legal argument whatsoever. “Although
we are sensitive to [her] pro se status . . . . , our
leniency is not without limit and does not excuse
[her] utter failure to provide any legal support or
argument . . . .” Ventress v. Japan Airlines, 747 F.3d
716, 723 n.8 (9th Cir. 2014).1
AFFIRMED.
** The panel unanimously concludes this case is
suitable for decision without oral argument. See
Fed. R. App. P. 34(a)(2).
The Motions for Third Party Intervention, filed
with this court on January 9, 2020 (Docket Entry
No. 41) and June 30, 2020 (Docket Entry No. 62) are
DENIED. Powers’s Motion for Default of Appellee
Thomas Peppers for Failure to Respond, filed with
this court on June 3, 2020 (Docket Entry No. 53), is
DENIED. Her Motions to File Multiple Reply
Briefs, filed with this court on June 23, 2020
(Docket Entry Nos. 58 and 59), are DENIED.
1

3a
APPENDIX B

FILED

UNITED STATES CIRCUIT COURT OF APPEALS
JUL 22 2020
FOR THE NINTH CIRCUIT
MOLLY C. DWYER,
CLERK U.S. COURT OF APPEALS
_______________________________________

BILLIE RENEE FRANCES LILLIAN POWERS,
Petitioner,
No. 19-55013
LORIE-ANN COLE; et al. D.C. No. 8:17-cv-01386
Intervenors-Pending
DOC-KES
v.
THE BANK OF NEW YORK MELLON, FKA Bank
of New York, as Trustee, on behalf of the holders of
the alternative Loan Trust 2007-HY9 Mortgage
Pass Through Certificates Series 2007-HY9; et al.,
Respondents
______________________________
The judgment of this Court, entered July 22,
2020, takes effect this date.
This constitutes the formal mandate of this
Court issued pursuant to Rule 41(a) of the Federal
Rules of Appellate Procedure.
FOR THE COURT:
MOLLY C. DWYER
CLERK OF COURT
By: Craig Westbrooke
Deputy Clerk
Ninth Circuit Rule 27-7

4a
APPENDIX C
Article III, Section 1 of the Constitution of the
United States
Section 1. The judicial Power of the United States,
shall be vested in one supreme Court, and in such
inferior Courts as the Congress may from time to
time ordain and establish. The Judges, both of the
supreme and inferior Courts, shall hold their Offices
during good Behaviour, and shall, at stated Times,
receive for their Services, a Compensation, which
shall not be diminished during their Continuance in
Office.
Fifth Amendment to the Constitution of the
United States
No person shall be held to answer for a
capital, or otherwise infamous crime, unless on a
presentment or indictment of a Grand Jury, except
in cases arising in the land or naval forces, or in the
Militia, when in actual service in time of War or
public danger; nor shall any person be subject for
the same offence to be twice put in jeopardy of life or
limb; nor shall be compelled in any criminal case to
be a witness against himself, nor be deprived of life,
liberty, or property, without due process of law; nor
shall private property be taken for public use,
without just compensation.

5a
Fourteenth Amendment to the Constitution of
the United States, Section 1
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction
thereof, are citizens of the United States and of the
state wherein they reside. No state shall make or
enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.
Supreme Court Rule 10(a)
Rule 10. Considerations Governing Review on Writ
of Certiorari
Review on a writ of certiorari is not a matter of
right, but of judicial discretion. A petition for a writ
of certiorari will be granted only for compelling
reasons. The following, although neither controlling
nor fully measuring the Court's discretion, indicate
the character of the reasons the Court considers:
(a) a United States court of appeals has entered a
decision in conflict with the decision of another
United States court of appeals on the same
important matter; has decided an important federal
question in a way that conflicts with a decision by a
state court of last resort; or has so far departed from

6a
the accepted and usual course of judicial
proceedings, or sanctioned such a departure by a
lower court, as to call for an exercise of this Court’s
supervisory power; . . .
FRAP 28. Briefs
(a) Appellant’s Brief. The appellant’s brief must
contain, under appropriate headings and in the
order indicated:
(1) a disclosure statement if required by Rule
26.1;
(2) a table of contents, with page references;
(3)
a
table
of
authorities—cases
(alphabetically arranged), statutes, and other
authorities—with references to the pages of
the brief where they are cited;
(4) a jurisdictional statement, including:
(A) the basis for the district court’s or
agency’s subject-matter jurisdiction,
with citations to applicable statutory
provisions and stating relevant facts
establishing jurisdiction;
(B) the basis for the court of appeals’
jurisdiction, with citations to applicable
statutory provisions and stating
relevant facts establishing jurisdiction;
(C) the filing dates establishing the
timeliness of the appeal or petition for
review; and
(D) an assertion that the appeal is from
a final order or judgment that disposes
of all parties’ claims, or information
establishing the court of appeals’

7a
jurisdiction on some other basis;
(5) a statement of the issues presented for
review;
(6) a concise statement of the case setting out
the facts relevant to the issues submitted for
review, describing the relevant procedural
history, and identifying the rulings presented
for review, with appropriate references to the
record (see Rule 28(e));
(7) a summary of the argument, which must
contain a succinct, clear, and accurate
statement of the arguments made in the body
of the brief, and which must not merely
repeat the argument headings;
(8) the argument, which must contain:
(A) appellant’s contentions and the
reasons for them, with citations to the
authorities and parts of the record on
which the appellant relies; and
(B) for each issue, a concise statement
of the applicable standard of review
(which may appear in the discussion of
the issue or under a separate heading
placed before the discussion of the
issues);
(9) a short conclusion stating the precise relief
sought; and
(10) the certificate of compliance, if required
by Rule 32(g)(1).
(b) Appellee’s Brief. The appellee’s brief must
conform to the requirements of Rule 28(a)(1)–(8) and
(10), except that none of the following need appear
unless the appellee is dissatisfied with the

8a
appellant’s statement:
(1) the jurisdictional statement;
(2) the statement of the issues;
(3) the statement of the case; and
(4) the statement of the standard of review.
(c) Reply Brief. The appellant may file a brief in
reply to the appellee’s brief. Unless the court
permits, no further briefs may be filed. A reply brief
must contain a table of contents, with page
references, and a table of authorities—cases
(alphabetically arranged), statutes, and other
authorities—with references to the pages of the
reply brief where they are cited.
(d) References to Parties. In briefs and at oral
argument, counsel should minimize use of the terms
“appellant” and “appellee.” To make briefs clear,
counsel should use the parties’ actual names or the
designations used in the lower court or agency
proceeding, or such descriptive terms as “the
employee,” “the injured person,” “the taxpayer,” “the
ship,” “the stevedore.”
(e) References to the Record. References to the parts
of the record contained in the appendix filed with
the appellant’s brief must be to the pages of the
appendix. If the appendix is prepared after the
briefs are filed, a party referring to the record must
follow one of the methods detailed in Rule 30(c). If
the original record is used under Rule 30(f) and is
not consecutively paginated, or if the brief refers to
an unreproduced part of the record, any reference
must be to the page of the original document. For
example:
• Answer p. 7;

9a
• Motion for Judgment p. 2;
• Transcript p. 231.
Only clear abbreviations may be used. A party
referring to evidence whose admissibility is in
controversy must cite the pages of the appendix or of
the transcript at which the evidence was identified,
offered, and received or rejected.
(f) Reproduction of Statutes, Rules, Regulations, etc.
If the court’s determination of the issues presented
requires the study of statutes, rules, regulations,
etc., the relevant parts must be set out in the brief
or in an addendum at the end, or may be supplied to
the court in pamphlet form.
(g) [Reserved]
(h) [Reserved]
(i) Briefs in a Case Involving Multiple Appellants or
Appellees. In a case involving more than one
appellant or appellee, including consolidated cases,
any number of appellants or appellees may join in a
brief, and any party may adopt by reference a part
of another’s brief. Parties may also join in reply
briefs.
(j) Citation of Supplemental Authorities. If pertinent
and significant authorities come to a party’s
attention after the party’s brief has been filed—or
after oral argument but before decision—a party
may promptly advise the circuit clerk by letter, with
a copy to all other parties, setting forth the
citations. The letter must state the reasons for the
supplemental citations, referring either to the page
of the brief or to a point argued orally. The body of
the letter must not exceed 350 words. Any response
must be made promptly and must be similarly

10a
limited.
Circuit Rule 28-1. Briefs, Applicable Rules
(a) Briefs shall be prepared and filed in accordance
with the Federal Rules of Appellate Procedure
except as otherwise provided by these rules. See
FRAP 28, 29, 31 and 32. Briefs not complying with
FRAP and these rules may be stricken by the Court.
(b) Parties must not append or incorporate by
reference briefs submitted to the district court or
agency or this Court in a prior appeal, or refer this
Court to such briefs for the arguments on the merits
of the appeal. (New Rule 7/1/00)
(c) Appellants proceeding without assistance of
counsel may file the informal form briefs provided
by the Clerk in lieu of the briefs described in FRAP
28(a) and (c), and need not comply with the
technical requirements of FRAP. (Rev. 1/96; 12/1/19)

